         Office of Inspector General




June 29, 2006

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Technology Acquisition Management Process Guide – Phase 2,
         Development (Product Number CA-WP-06-001)

This white paper provides the results of our review of the draft Technology Acquisition
Management (TAM) Process Guide – Phase 2, Development, dated March 2006
(Project Number 06YR002CA000). The U.S. Postal Service Office of Inspector General
(OIG) Engineering team and Supply Management and Facilities team performed the
review in accordance with the Value Proposition Agreement, dated October 6, 2005.

In a report entitled Technology Acquisition Management (Report Number
DA-AR-04-003, dated September 24, 2004), the OIG recommended that Engineering
develop written policies and procedures to better manage acquisitions. In response,
Engineering further developed, standardized, and documented its internal procedures to
address program management activities such as conditional acceptance criteria.
Engineering sought the OIG’s assistance in the development efforts, and together we
formed a Value Proposition Agreement to develop the TAM Process Guide. The
objective of the agreement is to promote acquisition practices that maximize benefits for
the U.S. Postal Service.

During this review, we determined whether the draft guide for Phase 2, Development,
corresponded to acquisition management procedures prescribed by the National
Aeronautics and Space Administration (NASA), the Department of Defense (DOD), and
Carnegie Mellon University, Software Engineering Institute (CMU/SEI). We also
determined whether the draft guide addressed internal controls prescribed by the
Government Accountability Office and prior OIG report recommendations. Finally, we
met regularly with TAM executives and the process development team to provide
feedback on draft versions of the guide. We issued a white paper entitled Technology
Acquisition Management Process Manual – Phase 1, Proof of Concept (Product
Number DA-WP-06-001, dated March 28, 2006), which summarized the review of the
proof of concept phase. We will continue implementing the Value Proposition
Agreement and expect to issue an additional white paper documenting our review of the
draft guide for Phase 3, Production Deployment, and Phase 4, Maintenance.

In general, the procedures documented for the draft guide for Phase 2, Development,
were consistent with acquisition management procedures prescribed by NASA, DOD,
and CMU/SEI, and addressed internal controls and recommendations made in prior
OIG reports. Based on our benchmarking, we determined that the draft TAM Process
Guide incorporated key best practices such as:

   •   Establishing a technical evaluation team.
   •   Determining technical evaluation factors to be included in the solicitation
       package.
   •   Evaluating proposals based on the technical evaluation factors.
   •   Recommending contractor selection based on the evaluation results.
   •   Awarding the contract based on the solicitation package.

The results of our detailed analysis are presented in the appendix. We have no
recommendations at this time, but agree that the TAM process development team’s
continued coordination with Postal Service Supply Management and Finance personnel
should help ensure the guide is consistent with their policies and procedures. In
addition, we suggest that Engineering seek review and comments on the TAM Process
Guide from key stakeholders, to include the vice presidents of Supply Management and
Finance, prior to final publication of the guide.

Engineering continues to make noteworthy progress in developing the TAM Process
Guide. During the review, Engineering was highly responsive to our comments and
suggestions. We will review the complete TAM Process Guide before its publication to
ensure that agreed-upon improvements are incorporated.

Management reviewed a discussion draft of this white paper and provided feedback,
which we have taken into account in this white paper; therefore, no response is
necessary. We appreciate the cooperation and courtesies provided by your staff. If you
have any questions or need additional information, please contact Judy Leonhardt,
director, Supply Management and Facilities; Miguel Castillo, director, Engineering; or
me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachment
cc: William P. Galligan
    Susan M. Brownell
    Aron M. Sanchez
    Donald E. Crone
    J. Otis Smith
    John F. Keegan
    Steven R. Phelps
Technology Acquisition Management Process Guide – Phase 2, Development                                                                             CA-WP-06-001



                                                                   APPENDIX. OIG ANALYSIS

                                                                                                  Included in Draft Technology
      Benchmarking with Department of Defense                                                     Acquisition Management          Draft TAM Process          Follow-up
I.    (DOD)                                                     Document Reference                (TAM) Process Guide             Guide Reference            Actions
a.    Program manager shall prepare and the milestone           DOD Instruction (DODI) 5000.2,    Yes                             Sections 2.5 and 3.2.1     None
      decision authority shall approve an acquisition           Section 3.7.2.3
      strategy to guide activity in system development
      and demonstration.

b.    Each program or increment will have an acquisition        DODI 5000.2, Section 3.7.2.5      Yes                             Sections 2.5 and 3.2.1     None
      program baseline establishing program goals,
      thresholds and objectives.




      Benchmarking with National Aeronautics and                                                  Included in Draft TAM Process   Draft TAM Process          Follow-up
II.   Space Administration (NASA)                               Document Reference                Guide                           Guide Reference            Actions
a.    Program manager shall ensure that all acquisition         NASA Procedure Requirements       Yes                             Sections 3.1 and 3.2.3     None
      efforts and other transactions are implemented in         (NPR) 7120, Section 2.4.2.2.d.1
      accordance with Federal law and regulations, and
      the NASA Supplement to the Federal Acquisition
      Regulation, NASA directives, and the program plan.



b.    The project manager shall assist the contracting          NPR 7120, Section 3.4.6.2.c.2     Yes                             Sections 3.2.1 and 3.5.1   None
      officer in the solicitation and award of contracts, and
      in the development of a plan to ensure appropriate
      surveillance, monitoring, and reporting of activities
      related to contracts and non-procurement
      instruments.


c.    If systems being acquired contain software, the           NPR 7120, Section 3.4.6.2.c.3     Yes                             Section 3.2.1              None
      project manager shall ensure compliance with the
      software contract requirements in NPR 7150.2,
      NASA Software Engineering Requirements.




                                                                                           1
Technology Acquisition Management Process Guide – Phase 2, Development                                                                                 CA-WP-06-001



                                                          APPENDIX. OIG ANALYSIS (Continued)
d.   The project manager shall ensure that NASA              NPR 7120, Section 3.4.6.2.f.3       Yes                                Section 3.2.1 and        None
     personnel follow agency guidance in procuring                                                                                  page 152 - Summary of
     spare parts per NASA NPR 5900.1, NASA Spare                                                                                    Major Activities
     Parts Acquisition.


e.   The portfolio manager shall initiate solicitation and   NPR 7120, Section 4.2.2.a           Yes                                Section 3.2.3            None
     receipt of proposals through the issuance of a
     Broad Agency Announcement following the process
     established in the approved Portfolio Process Plan.
     Prospective principal investigators participate in
     portfolio formulation by preparing and submitting
     proposals in response to a solicitation.


f.   Using peer review processes in NPR 1080.1,              NPR 7120, Section 4.2.2.b           Yes                                Sections 3.4 and 3.4.1   None
     Science Management, the portfolio manager shall
     evaluate proposals based on criteria in the
     solicitation.


g.   The portfolio manager shall recommend proposals         NPR 7120, Section 4.2.2.c           Yes                                Sections 3.4 and 3.4.1   None
     for selection.


h.   The portfolio manager shall review findings from        NPR 7120, Section 4.2.2.c.1         Yes                                Sections 3.4 and 3.4.1   None
     peer review and other factors and recommend
     selections for approval by the selection official.


i.   The portfolio manager shall include the rationale for   NPR 7120, Section 4.2.2.c.2         Yes                                Section 3.5              None
     selection or nonselection of each proposal
     evaluated.


j.   Complete an acquisition plan.                           NPR 7120, Section 3.2.1.2.h         Yes. Established with the DAR      Sections 2.5 and 3.2.1   None
                                                                                                 in Phase 1 and should be used to
                                                                                                 guide Phase 2 activities.

k.   Generate a procurement package for each                 NPR 7120, Section 3.4.6.2.b         Yes                                Section 3.1              None
     acquisition action.




                                                                                             2
Technology Acquisition Management Process Guide – Phase 2, Development                                                                              CA-WP-06-001



                                                          APPENDIX. OIG ANALYSIS (Continued)
l.     Develop and execute contracts and                     NPR 7120, Section 3.4.6.2.c        Yes                             Sections 3.4 and 3.4.1      None
       nonprocurement instruments.




       Benchmarking with Carnegie Mellon University,                                            Included in Draft TAM Process   Draft TAM Process           Follow-up
III.   Software Engineering Institute                        Document Reference                 Guide                           Guide Reference             Actions
a.     The solicitation process is defined for prospective   Capability Maturity Model          Yes                             Section 3.1                 None
       suppliers.                                            Integration (CMMI) - Acquisition
                                                             Module (AM) Version 1.1,
                                                             page 25

b.     Suppliers are selected based on the solicitation      CMMI-AM, Version 1.1, page 26      Yes                             Sections 3.4 and 3.5        None
       package.


c.     Contracts are issued based on the needs of the        CMMI-AM, Version 1.1, page 27      Yes                             Sections 3.4 and 3.5        None
       acquisition and the suppliers' proposed approaches.




                                                                                                Included in Draft TAM Process   Draft TAM Process           Follow-up
IV.    Internal Control Considerations                       Document Reference                 Guide                           Guide Reference             Actions
                                                                                       1
a.     Activity-level objectives flow from and are linked    General Accounting Office          Yes                             Sections 2.5, 3.1, 3.2.1,   None
       with the agency’s entity-wide objectives and          (GAO) Internal Control                                             3.2.3 and 3.5.1
       strategic plans and include measurement criteria.     Management and Evaluation
                                                             Tool, pages 24 and 25

b.     Controls are designed to ensure that only valid       GAO Internal Control               Yes                             Sections 3.1, 3.2.3, 3.4    None
       transactions and other events are initiated and       Management and Evaluation                                          and 3.5
       entered into, in accordance with management's         Tool, page 41
       decisions and directives.


c.     Key duties and responsibilities are divided or        GAO Internal Control               Yes                             Sections 3.4 and 3.5        None
       segregated among different people to reduce the       Management and Evaluation
       risk of error, waste, or fraud.                       Tool, page 40, Item 7




1
     Now known as the Government Accountability Office.




                                                                                           3
Technology Acquisition Management Process Guide – Phase 2, Development                                                                             CA-WP-06-001




                                                    APPENDIX. OIG ANALYSIS (Continued)

                                                                                           Included in Draft TAM Process         Draft TAM Process       Follow-up
V.   Lessons Learned from Past Audit Reports              Document Reference               Guide                                 Guide Reference         Actions
a.   Ensure that an individual Decision Analysis Report   Recommendation 1. Automated      Yes. This recommendation              Section 2.5             None
     be prepared for each equipment program, or create    Seamless Dispatch Program        applies to Engineering’s
     separate finance numbers for multiple program        (USPS-OIG Report Number DA-      Equipment Requirements and
     Decision Analysis Reports.                           AR-02-010, dated                 Economic Analysis (EREA)
                                                          September 18, 2002)              Group and Finance’s Capital and
                                                                                           Program Evaluation (CAPE)
                                                                                           Group. The draft TAM guide
                                                                                           gives details of the Decision
                                                                                           Analysis Report process.

b.   Ensure that Decision Analysis Reports include a      Recommendation 2. USPS-          Yes. This recommendation              Section 2.5             None
     single unified plan for related projects and         OIG Report Number DA-AR-02-      applies to Engineering’s EREA
     equipment necessary to support a network.            010, dated September 18, 2002    Group and Finance’s CAPE
                                                                                           Group. The draft TAM guide
                                                                                           gives details of the Decision
                                                                                           Analysis Report process.

c.   Ensure that contracting officers adequately seek     Recommendation 2.                Yes. This recommendation              Section 3.2.1           None
     competition in the award of contracts whenever       Contracting Practices for the    applies to Supply Management.
     possible.                                            Procurement of Mail Transport    The draft TAM guide gives
                                                          Equipment Services (USPS-OIG     details regarding the requirement
                                                          Report Number CA-AR-01-001,      for a noncompetitive justification,
                                                          dated February 27, 2001)         when appropriate.



d.   Strengthen internal controls to enforce compliance   Recommendation 1.                Yes. This recommendation              Sections 3.4 and 3.5    None
     with policies to prepare cost or price estimates,    Undefinitized Contract Actions   applies to Supply Management.
     document rationale for best value determinations,    (USPS-OIG Report Number CA-      The draft TAM guide gives
     and document negotiations.                           AR-02-004, dated August 22,      details of cost or price estimates,
                                                          2002)                            best value determinations, and
                                                                                           documenting negotiations.




                                                                                     4
Technology Acquisition Management Process Guide – Phase 2, Development                                                                              CA-WP-06-001




                                                        APPENDIX. OIG ANALYSIS (Continued)
e.   Require purchase teams to ensure that justifications   Recommendation 1. Use of          Yes. The draft TAM guide            Section 3.2.1            None
     provided in support of noncompetitive purchases        Noncompetitive Contracting        requires noncompetitive
     are valid by: (a) Ensuring thorough market             Process for Tabbing Systems       purchases to be justified and
     research is performed before using the                 Purchases (USPS-OIG Report        Engineering to be involved in the
     noncompetitive purchasing process; (b) Ensuring        Number CA-AR-02-005, dated        solicitation and award process.
     Postal Service automation equipment engineers          September 30, 2002)
     have the opportunity to assess the automation
     equipment before using the noncompetitive
     purchasing process and investing significant funds.

f.   Determine the prequalification evaluation criteria,    Recommendation 1.                 Yes. The draft TAM guide            Section 3.2.1            None
     methodology, and approach and identify it in the       Procurement Prequalification      addresses identifying qualified
     initial planning documents.                            Process (USPS-OIG Report          bidders and determining
                                                            Number CA-AR-98-003, dated        technical and cost evaluation
                                                            September 30, 1998)               factors.

g.   Establish an evaluation panel when evaluating          Recommendation 4. USPS-           Yes. The draft TAM guide            Section 3.2.1            None
     potential suppliers.                                   OIG Report Number CA-AR-98-       addresses the use of a technical
                                                            003, dated September 30, 1998     evaluation team.

h.   Standardize the evaluation process and ensure that     Recommendation 7. USPS-           Yes. The draft TAM guide            Sections 3.2.1 and 3.4   None
     all potential suppliers for a single procurement are   OIG Report Number CA-AR-98-       discusses developing technical
     evaluated consistently.                                003, dated September 30, 1998     and cost evaluation factors and
                                                                                              TAM and Supply Management
                                                                                              evaluation of technical and cost
                                                                                              proposals.

i.   Continue efforts to develop important contract         Recommendation 2. Postal          Yes. The draft TAM guide            Sections 3.2.1 and 3.4   None
     documentation, to include: (1) justification for       Service’s Arrangement with a      discusses justification for
     noncompetitive purchase; (2) negotiation               Preferred Provider Organization   noncompetitive purchases,
     documentation; and (3) cost analysis.                  (USPS-OIG Report Number HK-       negotiation documentation, and
                                                            AR-03-001, dated March 31,        cost analysis.
                                                            2003)


j.   Ensure Postal Service computer access control          Recommendation 2. Robotics        Yes. However, this is a Phase 1     Section 2.6.1            None
     standards are included in future Statements of         Containerization System Access    activity and is addressed when
     Work using computer applications.                      Controls (USPS-OIG Report         TAM coordinates with
                                                            Number DA-MA-01-001, dated        stakeholders such as Software
                                                            March 8, 2001)                    Process Management
                                                                                              organization.




                                                                                        5
